Pension Benefit Guaranty Corporation
    Office of Inspector General
    Management Advisory Letter




      PBGC's Use of the Government
          Purchase Card for
           Micro-Purchases




              August 22, 2001
                                     2001-16/23147
                                                                           Office of Inspector General


                                                                           August 22, 2001


John Seal 

Acting Executive Director 

Pension Benefit Guaranty Corporation 



                 Re:	    Management Advisory Letter –
                         PBGC’s Use of the Government Purchase Card
                         for Micro-purchases


         The Office of Inspector General (OIG) conducted an evaluation of PBGC’s micro-purchase
program. The Pension Benefit Guaranty Corporation (PBGC) uses the Government’s International
Merchant Purchase Authorization Card (I.M.P.A.C., hereafter the “Card”) for micro-purchases. PBGC
contracted on September 22, 1998, with US Bank (Bank) for agency Cards. A micro-purchase is the
acquisition of supplies or services that does not exceed $2,500. At the end of Fiscal Year 2000, the micro-
purchase program had thirty-eight (38) Cardholders with the combined authority to purchase $7.5 million
of goods and services. Actual Card expenditures for FY 1999 and 2000 were about $729,000 and $1.14
million, respectively.

         The Federal Acquisition Regulations (FAR) in Subpart 13.2 encourages agency heads to delegate
micro-purchase authority. FAR further states that an agency shall develop procedures for use and
control of the Card. Though the Card could be used for a variety of purchase categories, PBGC
specifically limits the Card's use to micro-purchases. In addition to the government-wide regulations in
FAR, two documents control PBGC employees’ Card use:

        1.	 “Pension Benefit Guaranty Corporation Policy for Use of the Government’s I.M.P.A.C.
            Purchase Card” that describes the authority, purpose, and the specific responsibilities
            covered under the program; and
        2.	 “Government Commercial Purchase Card Service Guidelines/Procedures” that covers
            implementation of the Policy.


RESULTS IN BRIEF

       From our review, we identified weaknesses in PBGC’s management of the micro-purchase
program and employees’ use of the Card, including:

        •	   Controls available to limit Cardholders’ expenditures are not consistently
             used and exceptions are not documented.
        •    Payment and budgetary controls are not enforced.
        •	   Oversight is lacking, including failure to obtain Bank reports, monitor
             departments’ expenditures, and maintain documentation.

Because the micro-purchase Card program has grown since its inception, we suggest that
PBGC reassess the policies and procedures governing card use and strengthen its oversight of
the program.




                                                    -1-

                                                                                                  2001-16/23147
MICRO-PURCHASE PROGRAM OVERVIEW

        The Procurement Department (PD) has oversight of the micro-purchase program. PD is
responsible for:

        •    establishing policy for Card use;
        •    approving department directors’ requests for Cardholders;
        •    informing and forwarding Cardholders’ information to the Bank;
        •    providing written delegation to Cardholders and Approving Officials; and
        •    approving changes to the Card’s limitations for a particular Cardholder.

        PD has two Agency/Organization Program Coordinators (A/OPC)1 who are PBGC’s contact with
the Bank. Under the program, department directors or their delegated designees contact PD with the
names of Cardholders and Approving Officials and their purchase and approval limits. PD submits to the
Bank the paperwork setting single purchase limits, 30-day spending limits and acceptable merchant
codes.2 The Bank issues a Card in the PBGC employee’s name. PD sends a confirmation memo to the
Cardholder and Approving Official confirming the limits.

        The Bank sends a monthly invoice to the designated billing office in the Financial Operations
Department (FOD), who then forwards sections of the invoices to the responsible Cardholders and
Authorizers. The invoice lists each purchase, amount, date charged, merchant’s name and address, and
the Approving Official. The Cardholder reviews the invoice, matches purchases to their documentation,
and assigns a code to each purchase that directs FOD to the correct departmental obligation. The
Cardholder signs the invoice and forwards it with documentation to the Approving Official, who reviews,
approves with a signature, and transmits the approved invoice to FOD for payment.

OBJECTIVE, SCOPE AND METHODOLOGY

         We reviewed the micro-purchase program and use of the Card during FY 2000 to provide agency
management with information concerning possible weaknesses. To obtain an understanding of the
process, the OIG interviewed personnel in both PD and FOD, and systematically walked-through the
invoice payment process. We reviewed documents maintained in PD generated by the A/OPC. We
performed a survey of FOD’s FY 2000 I.M.P.A.C. invoice file. We also reviewed the GSA Master Contract
for the Card.

OIG FINDINGS

1. Program Controls

       In our review of the I.M.P.A.C. contract, we identified various authorization controls available to
PBGC to manage the program, among them:

        •    maximum dollars per transaction;
        •    maximum dollars per month, quarter or year;
        •    maximum number of transactions per day or month;
        •	   merchant category codes limitations to specific types of merchants;
             and




1A/OPC are defined by contract as the individuals who manage the card program for the agency and
have complete responsibility for the program.

2 Merchant codes are contractor-assigned categorization of business types. They are used as a control to
identify the types of businesses who provide goods and/or services that employees are authorized to
purchase with the Card. Cardholders are blocked from using cards at business types that are not
authorized (e.g., medical facilities or airports).

                                                    -2-

                                                                                              2001-16/23147
        •	   limitations on who can designate Cardholders and authorize Card
             changes.

         During our evaluation, we identified the specific authorizing controls used by PBGC to manage
the micro-purchase program. The first control PBGC uses is a dollar limit per purchase and the second
control is a maximum 30-day spending limit on each Cardholder. PBGC policy and procedures
specifically limits single Card purchases to micro-purchases, i.e., not to exceed $2,500. We found PD had
authorized some Cardholders’ single purchase authority in excess of the $2,500 threshold. In compliance
with FAR § 1.603-3(b), PBGC procedures require a written delegation of authority for each Cardholder
that provides their spending limits and authorization activity codes. In a search of PD files, we observed
that memoranda to delegate authority for all approved Cardholders were not retained. PD must bring
spending limits into compliance with policy and procedures and issue a written delegation of authority for
every current Cardholder that does not have one on file.

         The third control PD uses is the merchant category code limitation that restricts purchases to
specific types of merchants. We reviewed five (5) departments Cardholders’ merchant codes and invoices.
We found two types of control violations:

        •	   some Cardholder’s used their Cards at merchants that were not approved;
             and
        •	   some Cardholder’s merchant codes had been changed to allow unrestricted
             purchases.

         We reviewed invoices and found some Cardholders were using their Cards at restaurants to
purchase gift certificates for non-monetary awards. Restaurants are not on the list of acceptable
merchants. The A/OPC stated that PD over-rode the merchant category code control by calling the Bank
and authorizing the Bank to accept the Cardholders’ charges. However, we found nothing in the A/OPC
files that documented the authorizations. Further, in four of the five departments we reviewed, we found
that some Cardholders’ three digit merchant codes had been changed to 000, which allows access to all
merchant types. PD’s files did not document who authorized the change, or why it was changed. The
reasons for circumventing the merchant code controls needs to be justified in writing on an individual
basis.

        The fourth control is that only department directors or their designees are to submit
departmental requests for Cards and Card changes. We found that PD accepted requests from
individuals who had not been given authority through a written delegation from their department director,
as required by PBGC directive. In addition, we found PD negotiating spending limits with individual
Cardholders via e-mail. Cardholders do not have authority to change purchase limitations with respect to
their Cards. Any changes or negotiations about Cards, including changes in merchant codes, must come
from the Cardholder’s department director or written designee and not the Cardholder.3 To comply with
PBGC directives and FAR, PD must obtain delegations of authority from all department directors stating
who may authorize their department’s Cards.

       The controls established for the Card are important to prevent unauthorized use, excessive
purchases, and potential fraud. When PBGC does not document exceptions to the controls, it is
vulnerable to misuse and abuse of the Card, and to financial liability.




3 Documentation retained by the A/OPC had only the Cardholder’s request. There was no
documentation that the request was authorized by the department director or designee.

                                                   -3-

                                                                                            2001-16/23147
2. Payment Process

        We conducted a survey of I.M.P.A.C. invoices paid in FY 2000 by reviewing the obligation for Card
expenditures and tracking one invoice through the payment process. For micro-purchases, funds are
obligated prior to expenditure. For example, a department would obligate $10,000 specifically for
supplies purchased using the Card. The department can then charge up to $10,000 in supplies. We
found that some departments charged more than they had obligated. Controls need to be developed to
ensure that departments do not use the Card when there is not enough funds obligated to pay for the
purchase. Overcharging could cause a delay in the payment of invoices as additional funds, if available,
would have to be obligated for Card purchases.

          Another payment issue surfaced when we reviewed an invoice to purchase non-monetary award
gift certificates. PBGC uses project codes to track some expenditures, including non-monetary awards.
We found the department had not obligated funds to purchase non-monetary awards using the micro-
purchase Card. When we reviewed the department’s budgetary spending we found that no funds had
been expended from their non-monetary awards budget, even though the gift certificate micro-purchases
totaled 35% of their award budget. If appropriate budgetary project codes are not assigned to micro-
purchase Card expenditures, it is possible for departments to exceed their authorized budget amounts in
particular categories. Procedures need to be developed to ensure Cardholders and Approving Officials
associate Card expenditures with the correct budgetary categories.

       In addition, we note that PBGC developed policies and procedures for the micro-purchase
program when the purchase Card was first introduced for limited use. Currently, PBGC lists permissible
purchases as including, but not limited to:

        •    goods and services purchased from mandatory government supply schedules;
        •    repair services not covered by existing maintenance agreements; and
        •    subscriptions, books, and authorized memberships.

PBGC also lists seven items or services that may not be purchased using the Card, such as
telecommunications (telephone) services. The polices and procedures need to be updated to reflect
current Card usage which has expanded to essentially all purchases under $2,500, including training,
non-monetary awards, software and IRM purchases. Further, PBGC needs to review other directives and
polices to ensure Card use does not undermine other existing controls. For example, PBGC directives
require prior approval for IRM purchases but Card procedures do not.


3. Program Oversight

        Under PBGC policy and procedures and the I.M.P.A.C. contract, PD is assigned two primary
responsibilities for the Card:

        1.   oversight of the micro-purchase Card program, and
        2.   PBGC’s point of contact with the Bank that issues the Card.

During our fieldwork, PD was unable to provide any historical information on Card use nor obtain basic
reports from the sponsoring Bank as requested by the OIG. We understand that the information
requested is available on-line from the sponsoring Bank’s Master File, but PD has not availed themselves
of that capability. To perform effective oversight, PD needs to obtain and review Card reports maintained
by the Bank.




                                                   -4-

                                                                                            2001-16/23147
        After the initial period of limited Card use, authority for micro-purchasing was transferred from
PD to the departments. PD was to provide PBGC’s centralized control by performing periodic reviews of
the departments’ purchasing records and providing guidance. Based upon the documentation PD
maintains, we were unable to determine the quality of PD’s oversight reviews and saw little evidence that
the departments were seeking PD’s guidance. PD needs to exercise its oversight responsibility and
communicate more effectively with the Cardholders, Authorizers, Department Directors, and their
designees.


SUGGESTIONS FOR IMPROVEMENT

         As the micro-purchase program has significantly grown (i.e., total dollar amount, number of
Cardholders, and authorized purchases), PBGC needs to invest in strengthening procedures and oversight
of the entire program. The program, as currently operating, is vulnerable to fraud and misuse. We
suggest that PBGC review the micro-purchase Card program in light of the weaknesses identified in this
Advisory Letter, and revise its written policies and procedures to:

        •   determine what documentation must be maintained and for how long;
        •   determine who is responsible for tracking the use of funds;
        •   reassess who should have day-to-day responsibility for the program;
        •   reassess who should have oversight; and
        •   ensure Cardholders have obligated funds prior to expending.


AGENCY COMMENTS

        PBGC was provided with a draft of the Management Advisory Letter for review and comment. We
met with Procurement officials, during the comment period, to clarify certain reported issues. We
received positive comments on the Advisory Letter including a commitment from PBGC management to
strengthen control over the micro-purchase program to reduce PBGC’s risk exposure.

        The full text of PBGC’s comments are attached to this report at Tab I.

       If you have any questions concerning this letter report, please contact me at
(202)326-4030.




Wayne Robert Poll
Inspector General


cc: 	   Robert Herting, PD
        Marty Boehm, CCRD




                                                   -5-

                                                                                            2001-16/23147
Tab I

